  U.S. DEPARTMENT OF COMMERCE
            Office of Inspector General




                PUBLIC
               RELEASE


                     MINORITY BUSINESS
                  DEVELOPMENT AGENCY

  Discretionary Funding Decision Process:
                 Native American Business
             Development Center Program
                         CFDA No. 11.801

Final Audit Report No. BTD-10955-8-0001 / September 1998




        Office of Audits, Business and Trade Audits Division
U.S. Department of Commerce                                                                        Audit Report BTD-10955-8-0001
Office of Inspector General                                                                                       September 1998

                                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

PURPOSE AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          I.        NABDC Solicitation Process Should Be Expanded
                    To Attract More Applicants . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          II.       NABDC Review Process Should Be Expanded
                    to Include Outside Reviewers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          III.      Procedures And Practices For Selecting NABDC Awardees
                    Are Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          IV.       Procedures And Practices For Renewing Prior NABDC Awards
                    Are Adequate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

          V.        Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                               MBDA’s Response to Draft Audit Report . . . . . . . . . . . . . . . . . . . . . . . . 11



APPENDIX I -                   MBDA Procedures for Solicitation, Review and Selection of Awards
APPENDIX II -                  New Awards and Renewals for Fiscal Year 1997
APPENDIX III -                 MBDA’s Complete Response to the Draft Report
U.S. Department of Commerce                                             Audit Report BTD-10955-8-0001
Office of Inspector General                                                            September 1998

                                   EXECUTIVE SUMMARY

Discretionary financial assistance programs are those programs for which federal agencies have
the authority to independently determine (1) the recipients and (2) the funding levels of the
awards made under those programs. These programs involve a significant portion of the
Commerce Department’s budget and operations. If not properly administered, they are
particularly susceptible to fraud, waste, and misuse of funds. The Office of Inspector General
administers an active program of reviews – which includes audits, inspections, and investigations
– aimed at better ensuring that these programs are well-managed, represent the best use of
taxpayers’ dollars, and achieve their intended objectives.

Senator John McCain, Chairman, Committee on Commerce, Science, and Transportation,
requested that the Inspectors General of the Departments of Commerce and Transportation, the
National Science Foundation, and the National Aeronautics and Space Administration review the
discretionary funding programs of their respective agencies to assess the manner in which
discretionary funding decisions are made. More specifically, the Chairman requested that each
IG primarily review and report on:

l      the criteria developed, either statutorily or administratively, to guide agency officials in
       making discretionary spending decisions, and

l      the extent to which the criteria are appropriately applied.

The Federal Grant and Cooperative Agreement Act encourages competition in financial
assistance programs as a means to fairly and objectively identify and fund, based on merit, the
best possible projects, thereby achieving program objectives more effectively. Office of
Management and Budget guidance for administering competition-based financial assistance
programs encourages widespread solicitation of eligible applicants, independent application
reviews, and written justifications for award decisions. The Department of Commerce has
formally embraced these guidelines in formulating its policies and procedures for discretionary
funding programs, requiring that all financial assistance awards be made on the basis of
competitive reviews unless a special waiver is obtained. The competitive review process must
also meet minimum standards, including publication of a notice, at least annually, in the Federal
Register soliciting award applications.

The OIG is conducting a comprehensive review of the solicitation, review, and selection
processes for discretionary funding programs in the Department. As part of this review, we
conducted a performance audit of MBDA’s fiscal year 1997 award procedures and practices for
the Native American Business Development Center (NABDC) program. The NABDC program,
described in the Catalog of Federal Domestic Assistance as No. 11.801, provides direct


                                                  i
U.S. Department of Commerce                                          Audit Report BTD-10955-8-0001
Office of Inspector General                                                         September 1998

business development services to clients to aid in the creation, expansion, and preservation of
Native American-owned businesses. During fiscal year 1997, the program awarded two new
cooperative agreements and eight continuations or renewals of prior awards, totaling $2,089,463.

We examined MBDA’s application solicitation, review and selection procedures and practices
for the NABDC program and found that they were generally adequate and that they met the
Department’s current minimum requirements. At the same time, we identified opportunities for
improving the program’s award procedures and practices. Specifically, our audit disclosed that
MBDA:

l      Followed established procedures in soliciting applications. However, the solicitation
       process should be enhanced by expanding and targeting advertising (see pages 6-7).

l      Followed established procedures and applied merit-based criteria in reviewing
       applications. However, the independence of the review process would be enhanced by
       inviting reviewers from outside MBDA and the Department to participate (see pages 7-9).

l      Has adequate procedures and practices for selecting awardees (see page 9).

l      Has adequate procedures and practices for renewing prior awards (see page 10).

We recommend that the MBDA Director:

l      Expand the NABDC solicitation process, through announcements in additional media
       outlets and in areas with large Native American populations, to provide a widespread
       solicitation of eligible applicants.

l      Include officials from outside MBDA and the Department as NABDC proposal reviewers
       to enhance the objectivity of the merit-based selection process.

                                           ------------

In its reply to our draft audit report, MBDA agreed with the recommendations and is modifying
its grants process to implement the recommendations and other improvements.




                                                ii
U.S. Department of Commerce                                            Audit Report BTD-10955-8-0001
Office of Inspector General                                                           September 1998

                                        INTRODUCTION

The Minority Business Development Agency, created by Executive Order 11458 in 1969, is the
only federal agency specifically established to encourage the creation, growth, and expansion of
minority-owned businesses in the United States. In 1971, Executive Order 11625 authorized
MBDA to “provide financial assistance to public and private organizations so that they may
render technical and management assistance to minority business enterprises.” The fiscal year
1997 appropriations for the Department of Commerce included funds “for necessary
expenses...in fostering, promoting, and developing minority business enterprise, including
expenses of grants, contracts, and other agreements with public or private organizations.”

MBDA’s Native American Business Development Center (NABDC) Program, described in the
Catalog of Federal Domestic Assistance (CFDA) as No. 11.801, provides direct business
development services to clients to aid in the creation, expansion, and preservation of Native
American-owned businesses. The centers provide a structured and systematic approach to
addressing the special needs and problems of Native American firms and individuals interested
in entering, maintaining, or expanding their efforts in the competitive marketplace. Although the
centers may provide services to any minority client, they focus on the unique business needs of
Native Americans.

The program provides the following assistance to the Native American community:

l      Development of new sources of venture capital;

l      Utilization of traditional business principles through direct management and technical
       assistance;

l      Long-range business and economic planning;

l      Establishment of Native American-owned or controlled financial institutions; and

l      Establishment of business and training initiatives.

MBDA can continue to fund NABDCs, without competition, after the initial competitive budget
period, not to exceed a total of five consecutive budget periods.

The NABDC program awarded 10 cooperative agreements, totaling $2,089,463, for fiscal year
1997. Of the 10 awards, 8 were renewals or continuations of awards made in previous years, and
2 were new awards. A list of all awards, including the names of recipients and the award
amounts, is provided as Appendix II.

In addition to providing direct business services to its clients, the program accesses the resources
of other federal agencies and maintains working relationships with the Department of Health and

                                                 1
U.S. Department of Commerce                                            Audit Report BTD-10955-8-0001
Office of Inspector General                                                           September 1998

Human Services’ Administration for Native Americans, the Department of the Interior’s Bureau
of Indian Affairs, and other federal programs targeted specifically to Native Americans.

Discretionary assistance programs are those for which federal agency officials have the authority
to decide (1) which eligible applicants will receive awards, and (2) how much will be awarded.
Technically, all Commerce financial assistance programs are discretionary, rather than
entitlement, programs. However, the authorizing legislation for the programs provides for
varying degrees of discretion in making awards. The use of competitive selection procedures is
recognized as the most effective method of ensuring that financial assistance awards are made on
the basis of merit. One of the primary purposes of the Federal Grant and Cooperative Agreement
Act (31 U.S.C. §6301) is to encourage competition in the award of federal financial assistance to
the maximum extent practicable.

The Office of Management and Budget has issued regulations on administering competition-
based financial assistance programs for use by federal agencies. An interagency study group,
convened in 1979 by OMB to examine competition in financial assistance programs, determined
that financial assistance award processes, to ensure effective competition, should include three
basic elements. These elements, which were discussed in OMB’s June 1980 report, Managing
Federal Assistance in the 1980's, are:

l      Widespread solicitation of eligible applicants and disclosure of essential application and
       program information in written solicitations;

l      Independent application reviews that consistently apply written program evaluation
       criteria; and

l      Written justifications for award decisions that deviate from recommendations made by
       application reviewers.

Also, OMB has issued the following guidelines of particular relevance to federal financial
assistance programs:

l      OMB Circular A-123, Management Accountability and Control, requires agencies to
       establish written procedures for all programs and administrative activities, including
       financial assistance programs, that provide reasonable assurance that activities are
       effectively and efficiently managed to achieve agency goals.

l      OMB Circulars A-102, Grants and Cooperative Agreements with State and Local
       Governments, and A-110, Uniform Administrative Requirements for Grants and
       Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
       Organizations, require agencies to provide the public with advance notice in the Federal
       Register, or by other appropriate means, of their intended funding priorities for
       discretionary assistance programs unless such priorities are established by federal statute.

                                                2
U.S. Department of Commerce                                                                                                                                   Audit Report BTD-10955-8-0001
Office of Inspector General                                                                                                                                                  September 1998



Commerce has embraced these regulations in developing and issuing policies and procedures for
its discretionary funding programs. Department Administrative Order (DAO) 203-26,
Department of Commerce Grants Administration, requires that (1) all Commerce financial
assistance awards be made on the basis of competitive reviews unless a special waiver is
obtained, (2) competitive review processes meet minimum standards outlined in the DAO, and
(3) all Commerce agencies publish, at least annually, a notice in the Federal Register soliciting
award applications. The chart presented below depicts the process and controls for the
solicitation, evaluation, and selection of financial assistance awards as set forth in DAO 203-26.
The processes we reviewed during our audit are color coded for this chart and the MBDA process
chart located in Appendix I.
                                      PURPOSE AND SCOPE

This audit was conducted as part of a comprehensive review of the Department of Commerce’s


                                          Department of Commerce Financial Assistance Awards Process
  Congress




                                    LEGISLATIVE AUTHORITY &
                                    APPROPRIATIONS REQUIREMENTS




                                                                                                                                        PREAWARD SCREENING
  Department




                                                                                                                                        * Office of General Counsel Review        FINANCIAL
                                    POLICIES &                                                                                                                                    ASSISTANCE
                                    PROCEDURES                                                                                          * Office of Inspector General Review      REVIEW BOARD
                                                                                                                                          -- Limited Background Check
                                                                                                                                          -- Credit Review
                                                                                                                                          -- Outstanding Audit Issues




                                                       SOLICITATION                 REVIEW                  SELECTION                                PREAWARD SCREENING
  Bureau/Program




                                     POLICIES &
                                     PROCEDURES        Public Announcement          * Independent Review    *   Quantitative Scores                  * Outstanding Accounts       SIGNED BY GRANT
                                                       and notification of             Panel(s)             *   Public Policy Considerations           Receivable                 OFFICER
                                                       financial assistance         * Evaluation Criteria   *   Recommend Action                     * Suspensions & Debarments   OR DESIGNATED
                                                       opportunities (eg.           * Numeric Ranking       *   Decision Fully Justified and         * Award Prepared Properly    OFFICIAL
                                                       Federal Register,
                                                                                                                Documented
                                                       Commerce Business
                                                       Daily, Internet web sites)
  Financial Assistance Applicants




                                                                                                                                                                                     AWARD
                                                       PROPOSAL




Figure 1


                                                                                                                3
U.S. Department of Commerce                                              Audit Report BTD-10955-8-0001
Office of Inspector General                                                             September 1998

discretionary funding programs initiated at the request of Senator John McCain, Chairman,
Committee on Commerce, Science, and Transportation. The Chairman requested that the
Inspectors General of the Departments of Commerce and Transportation, the National Science
Foundation, and the National Aeronautics and Space Administration, review the discretionary
funding programs of their respective agencies to assess the manner in which discretionary
funding decisions are made. More specifically, the Chairman requested that each IG review and
report on the criteria developed, either statutorily or administratively, to guide agency officials in
making discretionary spending decisions, and on the extent to which the criteria are appropriately
applied.

We are conducting our Department-wide review in two phases: a survey phase (completed) and
an individual program audit phase (on-going). During the survey phase, we identified and
examined the body of laws, regulations, and other guidance applicable to the administration of
federal financial assistance programs. We also examined the authorizing legislation for each
Commerce financial assistance program and classified each program as either a “full discretion”
program or a “limited discretion” program, based on the extent to which the legislation limits the
agency’s authority to independently determine the recipients and funding levels of the awards
made under the program. Finally, we examined fiscal year 1997 appropriations legislation and
accompanying committee and conference reports to identify all earmarked projects.

During the second phase of our review, we are conducting individual audits of the award
solicitation, review, and selection processes of each program we have classified as a “full
discretion” program, including the MBDA NABDC program. We are evaluating the adequacy of
each program’s established award procedures. For those programs with procedures deemed to be
adequate, we are ascertaining whether they were followed in making awards in fiscal year 1997.
For those programs with procedures considered to be inadequate or lacking, we are reviewing
how fiscal year 1997 award decisions were made. Finally, we are examining the earmarks
identified for each program and determining their significance and impact on fiscal year 1997
award decisions. We plan to issue individual reports, with any appropriate recommendations, on
each program, followed by a capping report summarizing the results of the individual audits and
providing recommendations for the Department and its bureaus.

On July 21, 1998, the Acting Inspector General and the Chief Financial Officer and Assistant
Secretary for Administration testified before the Senate Commerce, Science, and Transportation
Committee on the Department’s discretionary funding programs. The Acting IG reported on the
results of the preliminary, survey phase of the OIG’s review, and discussed some of the
preliminary observations from the individual program audits.




                                                  4
U.S. Department of Commerce                                                  Audit Report BTD-10955-8-0001
Office of Inspector General                                                                 September 1998

This performance audit focused on funding decisions made during fiscal year 1997 under the
NABDC program. Specifically, we:

l      Reviewed the authorizing legislation and information summarized in the CFDA to
       identify criteria for funding decisions.

l      Reviewed policies and procedures for soliciting and reviewing proposals and selecting
       recipients for funding (see Appendix I for flowchart of process). We also reviewed
       MBDA’s procedures as they applied to the solicitation, review, and selection process;
       specifically, MBDA Order No. 715, The American Indian Program Competitive Review
       Panel Instructions and Forms; MBDA Order No. 750, Program Management of the
       Minority Business Development Center (MBDC) Program1; and the Competitive
       Application Package for the NABDC program. We assessed whether the procedures
       were adequate and whether they were in compliance with DAO 203-26.

l      Reviewed selected fiscal year 1997 awards to compare MBDA’s procedures with its
       practices to determine if the process contained adequate internal controls to provide for
       competitive, merit-based awards.

l      Examined pertinent documents in individual program award files to determine if
       departmental and MBDA policies and procedures were followed.

l      Interviewed MBDA program office officials and personnel from the Department’s Office
       of Executive Assistance Management (OEAM) concerning MBDA’s solicitation, review,
       and selection procedures.

l      Examined fiscal year 1997 appropriations legislation and accompanying committee and
       conference reports to identify earmarked projects for this program. None were found.

We did not rely upon computer-based data during the audit.

We performed the review at MBDA headquarters and OEAM in May and June 1998. We
conducted the audit in accordance with generally accepted government auditing standards, under
the authority of the Inspector General Act of 1978, as amended, and Department Organization
Order 10-13, dated May 22, 1980, as amended.




       1
           According to MBDA, the order is also applicable to the NABDC program.

                                                     5
U.S. Department of Commerce                                          Audit Report BTD-10955-8-0001
Office of Inspector General                                                         September 1998

                          FINDINGS AND RECOMMENDATIONS

MBDA’s procedures and practices for soliciting, reviewing, and selecting applications for
funding under the NABDC program complied with the minimum departmental and agency award
procedures. However, the solicitation process was limited to the required published notice in the
Federal Register, and applications were reviewed only by MBDA employees. Since only one
application was received for each of the two new NABDC awards funded during fiscal year
1997, MBDA may have unnecessarily limited the potential for receiving a larger number of
responsive proposals by soliciting proposals only in the Federal Register. Also, the use of
officials other than MBDA employees to review proposals would enhance the independence of
the merit-based award selection process. We also found that MBDA has adequate procedures
and practices for renewing of awards and that they properly followed them in fiscal year 1997.

I.     NABDC SOLICITATION PROCESS SHOULD BE EXPANDED
       TO ATTRACT MORE APPLICANTS

MBDA’s procedures and practices for the NABDC program met the minimum regulatory
requirement for public notice in the Federal Register of the intent to award. However, MBDA
received only one application, from the National Center for American Indian Enterprise
Development, for each of the two new NABDC awards funded during fiscal year 1997. The
receipt of only one application for the two new awards may have been due to MBDA solely
publishing the required annual notice, instead of using additional media targeted to reach the
Native American population. Widespread solicitation of eligible applicants helps ensure that
federal programs receive multiple applications responsive to program objectives, and provides
potential applicants with an opportunity to apply for assistance.

DAO 203-26, Section 4.02, lists required solicitation procedures for competitive grant programs.
These procedures are designed to ensure widespread notification to the interested public. Section
4.02 provides the following solicitation criteria, in part:

l      Annual Public Notice. To inform the interested public, each organization unit shall
       publish at least annually a notice in the Federal Register which includes basic
       information for each discretionary grant program.

l      Other Solicitations of Applications. Further notice(s) in the Federal Register or other
       publications soliciting applications or preapplications must include information published
       in the Annual Public Notice.

l      Minimum Notice. In order to provide the public reasonable notice, there must be a
       minimum of 30 days between the date of publication and the closing date for receipt of
       applications.

                                               6
U.S. Department of Commerce                                           Audit Report BTD-10955-8-0001
Office of Inspector General                                                          September 1998

MBDA complied with the minimum requirement for publication of basic grant information in the
Federal Register. MBDA published its annual notice, “Solicitation of Native American Business
Development Center Applications for Arizona and California,” in the Federal Register on
August 20, 1996.2 The notice invited applications for two NABDC awards to service the states
of Arizona and California for a 13-month period (December 1, 1996 through December 31,
1997). The notice established a closing date of September 24, 1996 for applications and set forth
the criteria for evaluation.

However, by using only the Federal Register rather than tailoring its solicitation methods to
reach a widespread applicant population, MBDA may not have effectively solicited responsive
applications. Section 4.02.(f.) of the DAO states, “To ensure widespread notification to the
public, program officials are strongly encouraged to use publications in addition to the Federal
Register which, in their opinion, have a wide distribution among interested persons.” MBDA
should have expanded its solicitation process beyond the minimum required in order to attract
Native American-owned institutions, located throughout the nation, that might have applied for
the awards. For small, well-defined applicant pools located within a small geographic region, a
single targeted medium, such as specialized periodicals or notices sent to each eligible entity,
should be sufficient to reach all eligible applicants. However, for large, less-defined applicant
pools, a broad-based solicitation medium, such as the annual Federal Register notice, coupled
with at least one more targeted medium, would be more likely to reach a significant portion of
the eligible community. Solicitation through multiple media is important for these applicant
pools, since they may not have easy access to a single information source.

In the future, MBDA can help ensure a larger number of responsive applications for the NABDC
program by providing eligible applicants with informative solicitations from sources other than
just the Federal Register. Targeted mediums should include local and tribal newspapers,
periodicals targeted towards Native Americans, and announcements on its Internet web site.

II.    NABDC REVIEW PROCESS SHOULD BE EXPANDED
       TO INCLUDE OUTSIDE REVIEWERS

All of the applications were reviewed by a panel as required by departmental and MBDA
procedures. The panel members also documented their deliberations as required. However,
MBDA used only its own business development specialists as panel members to review the
applications. To enhance the independence of the application review process, MBDA should
invite reviewers from outside MBDA and the Department to participate.




       2
           61 Fed. Reg. 43,044 (August 20, 1996).

                                                    7
U.S. Department of Commerce                                             Audit Report BTD-10955-8-0001
Office of Inspector General                                                            September 1998

DAO 203-26, Section 4.02h.1, mandates that bureau competitive review processes meet the
minimum requirements:

l      Applications are treated fairly under the review process;

l      Each application receives an independent, objective review by one or more review panels
       qualified to evaluate the applications submitted under the program;

l      Each review panel uses the selection criteria cited in the application solicitation notice.

The panels evaluated the applications using the following weighted criteria set forth in the
published notice:

l      Capability and experience of firm and staff (45 points);
l      Techniques and methodologies (25 points);
l      Resources (10 points); and
l      Estimated costs (20 points).

MBDA further divides the criteria, with points given for each subcriterion, for use in assessing
the merits of each applicant. For instance, the capability and experience of the firm would be
determined by assessing the applicant’s client service experience, its knowledge of the
geographic service area, the quality of its professional relationships, and the backgrounds of the
professional staff and project director. In our opinion, the criteria and subcriteria used in the
NABDC program reflect a merit-based award process for the NABDC awards.

Reviewers must address the weighted criteria, verify that required standard forms and other
elements of the application are present, and comment in writing on the applicant’s qualifications.
We found that reviewers applied the merit-based criteria and subcriteria to assess the applicants,
and they properly documented their reviews of each application on MBDA evaluation forms.

DAO 203-26, Section 4.02h.1.(d.) requires that each review panel include at least three persons.
Reviewers from outside MBDA and the Department are also permitted under the DAO. MBDA
Order No. 715 requires that competitive review panels be comprised of at least three members
who are selected by the regional director or his/her designee. However, under the MBDA order,
panel members are expected to be professional employees of the Department and MBDA. No
other criteria for membership are listed; the regional director has broad discretion in the choice of
members.

MBDA used two internal panels, each with three business development specialists, to review the
applications for each award. Two specialists served on both panels, and the third member on
each panel also served as panel chairman. All panel members were employed in the Atlanta

                                                 8
U.S. Department of Commerce                                            Audit Report BTD-10955-8-0001
Office of Inspector General                                                           September 1998

regional office, providing a measure of independence from the San Francisco regional office
director, in whose region the centers would be located and who would review the panels’
recommendations.

An MBDA official told us that they had used officials from MBDA headquarters several times to
review applications, but that officials from outside the Bureau had rarely served as panel
members. We believe that the use of knowledgeable reviewers, from outside MBDA or the
Department, to evaluate applications would provide an independent perspective and enhances the
objectivity of the merit-based selection process.

III.   PROCEDURES AND PRACTICES FOR SELECTING
       NABDC AWARDEES ARE ADEQUATE

Although MBDA received only one application for each award, it complied with the
Department’s requirements for selecting the awardees. DAO 203-26, Section 4.02 h.1.(f)-(g),
mandates the steps to review the applications in accordance with the selection criteria set forth in
the annual Federal Register notice:

l      After the review panel has evaluated the applications, the organization unit prepares a
       rank ordering of the applications based solely on the evaluations by the review panel; and

l      The organization unit determines the order in which applications will be selected for
       funding based on the following factors:

       (1)     Any priorities or other program requirements that have been published in the
               Federal Register and apply to the selection of applicants for new awards; and

       (2)     The rank order of the applications established by the review panel on the basis of
               the selection criteria.

The National Center for American Indian Enterprise Development, an Arizona organization, was
the only applicant for both awards. After the individual panel members completed their reviews
and scoring of the applications based on the weighted criteria, the rating sheets and applications
were given to the two panel chairpersons for compilation and summary. Each panel chairperson
reviewed the application for the respective award and met with the San Francisco regional
director to determine the competence of the applicant and the quality of the applications. The
San Francisco regional director agreed to the selections for the awards and appropriately
documented his approvals on October 28, 1996. After completing the preaward screening
required under DAO 203-26, the Department approved awards totaling $508,400 ($197,825 for
the Arizona NABDC and $310,575 for the California NABDC) to the National Center.


                                                 9
U.S. Department of Commerce                                          Audit Report BTD-10955-8-0001
Office of Inspector General                                                         September 1998

IV.    PROCEDURES AND PRACTICES FOR RENEWING
       PRIOR NABDC AWARDS ARE ADEQUATE

MBDA awarded eight NABDC cooperative agreement renewals (i.e., an award amendment that
extends the project period and adds additional funds) in fiscal year 1997, totaling $1,581,063.
We selected four awards, totaling $931,725, to review award renewal procedures and practices.
We found that MBDA has adequate procedures for renewing awards and that it properly
followed them in reviewing the awards we examined. Information on all fiscal year 1997
renewals is provided as Appendix II.

MBDA’s Order No. 750, Section 9.f., “Continued Funding,” states that “MBDA may continue to
fund MBDCs, without competition, after the initial competitive budget period. Additional
program funding is based upon the recipient’s performance, the availability of funds, and agency
priorities. MBDCs may earn additional non-competing budget periods (not to exceed a total of
five consecutive budget periods without competition).” Under the order, which is applicable to
NABDCs, continued funding does not require an additional application to the program, unless
major changes are contemplated by the recipient or MBDA. MBDA’s regional offices prepare
and transmit requests for continued funding in accordance with any instructions received from
headquarters.

Proposals for renewal are processed in accordance with procedures outlined in Section 9.d. of
Order No. 750, “Competitive Application Review.” Proposals must be reviewed for their past
performance, justification for all proposed costs, and any outstanding debt to the U.S.
government. OEAM and the Department’s Office of General Counsel must review and approve
each request. MBDA followed these procedures for all cases that we reviewed.

V.     RECOMMENDATIONS

We recommend that the MBDA Director:

1.     Expand the NABDC solicitation process, through announcements in additional media and
       in areas with large Native American populations, to provide a widespread solicitation of
       eligible applicants.

2.     Include officials from outside MBDA and the Department as NABDC proposal reviewers
       to enhance the objectivity of the merit-based selection process.




                                               10
U.S. Department of Commerce                                         Audit Report BTD-10955-8-0001
Office of Inspector General                                                        September 1998

MBDA’s Response to Draft Audit Report

MBDA agreed with the findings and recommendations in the report. MBDA is currently
modifying its grant process and, as part of the realignment, expects to implement the
recommendations. MBDA intends to broaden outreach to attract the widest possible range of
candidates to apply to operate MBDA-funded projects. MBDA also intends to include officials
outside of MBDA and the Department as panelists to review incoming proposals.

MBDA’s complete response to the draft report is attached as Appendix III.




                                              11
                                    MBDA PROCEDURES FOR SOLICITATION, REVIEW, AND SELECTION OF AWARDS

                                                                                                        Return to Applicant
                                                                             Yes



MBDA Publishes Notice in
                                                                       Application Incomplete
   Federal Register                     Application
                                                                              or Late?



                                                                              No
                                                                                                                                                                  Panel Conducts Detailed
                                                                                                        Send written               Review Panel Conducts                                       Panel Ranks Applications
                                                                                                                                                                 Reviews Using Evaluation
                                                                                                  acknowledgement of receipt       Preliminary Review and                                       and Submits to Regional                A
                                                                                                                                                                  Criteria and Documents
                                                                                                        to applicants                Documents Results                                         Director for Final Selection
                                                                                                                                                                           Results




                           Final Selection Packaged     Final Selection Package                                                                                  MBDA Technicians Conduct
                                                                                                Package Forwarded to
    A                      and Submitted to MBDA      Received and Logged in By                                                Package Assigned to MBDA           Required Records Check
                                                                                                  MBDA Budget for                                                                                    B
                                 Headquarters          Field Coordination Division                                                 Staff for Reviews                 and Accuracy of
                                                                                                Confirmation of Funds
                                                                 (FCD)                                                                                                 Computations




                 MBDA Specialists Conduct                   Package           No                                                                            No
                                                                                              Submit Package for                                                 Submit Package for MBDA
    B             Programmatic Review of                 Found Deficient?                                                             Package Found
                                                                                           Preliminary Legal Review                                                 Director's Approval
                         Package                                                                                                        Deficient?


                                                                                                                                         Yes                                                                          Solicitation Process
                                                            Yes

                                                                                                                               Deficiency Notice Send to
                                                      Deficiency Notice Sent to                                                  FCD for Liaison with                                                                   Review Process
                                                                                                                                                                        To Department OEAM for
                                                           Regional Office                                                      Paneling Regional Office               Review and Final Approval

                                                                                                                                                                                                                       Selection Process



                                                                                                                                Paneling Regional Office
                                                      Regional Office Responds to                                               Responds to Deficiency
                                                           Deficiency Notice                                                            Notice




                                                                                                                                                                                                                              Appendix I
                                                                                                 Appendix II



                      MINORITY BUSINESS DEVELOPMENT AGENCY

          NATIVE AMERICAN BUSINESS DEVELOPMENT CENTER PROGRAM

                          New Awards and Renewals for Fiscal Year 1997

                                                                      AMOUNT OF AWARDS
    RECIPIENTS (Awards reviewed are italicized)
                                                                   New Awards                     Renewals
    National Center American Indian Enterprise                          $197,825
    National Center American Indian Enterprise                            310,575
    All Indian Pueblo Council, Inc.                                                                $197,825
    Eastern Band of Cherokee                                                                        197,825
    Minnesota Chippewa Tribe                                                                          84,562
    Minnesota Chippewa Tribe                                                                        169,125
    National Center American Indian Enterprise1                                                     197,825
    National Center American Indian Enterprise1                                                     310,575
    T3RC Associates                                                                                 254,200
    United Tribes Technical Center                                                                  169,126
    TOTALS                                                              $508,400                 $1,581,063
1
 Decisions to renew the two awards to the National Center, first made in FY 1997, were made on September 30,
1997, thus qualifying them as renewals.
